                          TIRNO-00-D-00018,
                  TIRNO-99-D-00018, TIRNO-99-D-0001,
                  TIRNO-02-K-00055, TIRNO-02-K-00051
                        Incurred Cost Audit for
                           Fiscal Year 2002

                                  July 2005

                     Reference Number: 2005-1C-066




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                             July 11, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-00-D-00018, TIRNO-99-D-00018, TIRNO-99-D-0001,
                              TIRNO-02-K-00055, TIRNO-02-K-00051 Incurred Cost Audit for
                              Fiscal Year 2002 (Audit #20051C0221)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s March 23, 2004,
       certified final indirect cost rate proposal and related books and records for the
       reimbursement of Fiscal Year (FY) 2002 incurred costs. The purpose of the
       examination was to determine the allowability of direct and indirect costs and to
       establish audit-determined indirect cost rates for FY 2002.
       According to the DCAA, it was unable to complete the examination of subcontract labor
       cost pending a General Services Administration (GSA) contracting officer’s decision on
       whether the contractor can bill the Government for subcontract labor at the contractor’s
       GSA contract rates. The DCAA stated that on April 13, 2004, the Defense Finance and
       Accounting Service contracting officer requested a GSA decision on the interpretation of
       Federal Acquisition Regulation clause 52.232-7. As of the date of this report, the DCAA
       has not received the GSA contracting officer’s decision. Also, the DCAA stated the
       decision is considered essential to the conclusion of this examination. Therefore, the
       audit results are qualified to the extent that additional costs may be questioned based
       on the GSA decision.
       The DCAA opined that the contractor’s indirect rates are acceptable as proposed.
       Additionally, claimed direct costs, except for the qualification discussed above, are
       acceptable as adjusted by the DCAA examination. Direct costs not questioned are
       provisionally approved pending final acceptance.
                                           2




The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
